<html>
<title> - STRENGTHENING VOCATIONAL AND TECHNICAL EDUCATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



           STRENGTHENING VOCATIONAL AND TECHNICAL EDUCATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              May 4, 2004

                               __________

                           Serial No. 108-56

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-569                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Susan A. Davis, California
James C. Greenwood, Pennsylvania     Danny K. Davis, Illinois
Fred Upton, Michigan                 Ed Case, Hawaii
Vernon J. Ehlers, Michigan           Raul M. Grijalva, Arizona
Jim DeMint, South Carolina           Ron Kind, Wisconsin
Judy Biggert, Illinois               Dennis J. Kucinich, Ohio
Todd Russell Platts, Pennsylvania    Chris Van Hollen, Maryland
Ric Keller, Florida                  Denise L. Majette, Georgia
Joe Wilson, South Carolina           George Miller, California, ex 
Marilyn N. Musgrave, Colorado            officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 4, 2004......................................     1

Statement of Members:
    Castle, Hon. Michael N., Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     1
        Prepared statement of....................................     3
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................     3
        New York Times Article, ``U.S. Is Losing Its Dominance in 
          the Sciences,'' submitted for the record...............     4

Statement of Witnesses:
    Brand, Betsy, Co-Director, American Youth Policy Forum, 
      Washington, DC.............................................     9
        Prepared statement of....................................    12
    Dunkel, Sandy, Division Administrator, Career Development 
      Division, Illinois State Board of Education, Springfield, 
      Illinois...................................................    22
        Prepared statement of....................................    25
    Ihlenfeldt, Dr. Bill A., President, Chippewa Valley Technical 
      College, Eau Claire, Wisconsin.............................    26
        Prepared statement of....................................    28
    Quinn, Brenda, Chief Executive Officer, Intelitek, Inc., 
      Manchester, New Hampshire..................................    28
        Prepared statement of....................................    32
    Stevens, Jean C., Assistant Commissioner, Office of 
      Curriculum & Instructional Support, New York State 
      Department of Education, Albany, New York..................    17
        Prepared statement of....................................    20

 
            STRENGTHENING VOCATIONAL AND TECHNICAL EDUCATION

                              ----------                              


                          Tuesday, May 4, 2004

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
room 2175, Rayburn House Office Building, Hon. Mike Castle 
[Chairman of the Subcommittee] Presiding.
    Present: Representatives Castle, Biggert, Davis of 
California, Kind, and Van Hollen.
    Staff Present: Stephanie Milburn, Professional Staff 
Member; Krisann Pearce, Deputy Director of Education and Human 
Resources Policy; Alanna Porter, Legislative Assistant; Deborah 
Samantar, Committee Clerk/Intern Coordinator; Jo-Marie St. 
Martin, General Counsel; Dennis Forte, Minority Legislative 
Associate/Education; Joe Novotny, Minority Legislative 
Assistant/Education; and Lynda Theil, Legislative Associate/
Education.
    Chairman Castle. Good afternoon, ladies and gentleman. A 
quorum being present, the Subcommittee on Education Reform of 
the Committee on Education and the Workforce will come to 
order.
    We are meeting today to hear testimony on strengthening 
vocational education. Under Committee rule 12(B), opening 
statements are limited to the Chairman and the ranking minority 
member of the Subcommittee. Therefore, if other members have 
statements, they may be included in the hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow member statements and other 
extraneous material referenced during the hearing to be 
submitted to the official hearing record.
    Without objection, so ordered.

STATEMENT OF HON. MICHAEL N. CASTLE, CHAIRMAN, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Thank you all--I mean, everybody here for joining us today 
to hear testimony on State and national efforts to implement 
Federal vocational and technical education programs under the 
Carl D. Perkins Vocational and Technical Education Act. Today's 
hearing will provide the opportunity to examine the 
implementation of the reforms from the 1998 reauthorization and 
will also provide insight on how these programs could be 
improved to better serve students. This is our second and final 
hearing on vocational and technical education as we look toward 
reauthorization of the Perkins Act.
    The Perkins program aims to prepare youth and adults for 
the future by building their academic and technical skills and 
ensuring they are equipped to proceed with postsecondary 
education or pursue other postsecondary opportunities. This 
program represents one of the largest Federal investments in 
our Nation's high schools and is a key component of our 
secondary and postsecondary education systems. According to the 
National Center for Education Statistics, 66 percent of all 
public secondary schools have one or more vocational or 
technical education programs with approximately 96 percent of 
high school students taking at least one vocational and 
technical course during their secondary studies.
    Vocational and technical education is an important 
postsecondary option as well. Over 2,600 postsecondary sub-
baccalaureate institutions, such as community colleges, 
technical institutes, skill centers and other public and 
private colleges also offer vocational and technical education. 
Reforms made to the Perkins Act in 1998 increase the focus on 
ensuring that participating students at both the secondary and 
postsecondary levels acquire academic and technical skills as 
well as complete their respective programs and transition into 
further education and successful employment.
    Some progress has been made in States that have created an 
initial performance accountability system, and the focus on 
academic performance among students participating in vocational 
and technical education courses has been strengthened. However, 
technology and economic competition are combining in ways that 
are changing the nature of work and are redefining the American 
workplace. The need for higher literacy, numeracy, 
communication and interpersonal skills in the workplace has 
grown over the past decade and will continue to be an important 
factor in the workplace in the future.
    The skills needed to be successful in postsecondary 
education are similar to the skills that are required by 
employers. The need for a strong academic and technical 
background makes it imperative that the current vocational and 
technical education system adapt in order to provide the 
knowledge and skills needed to succeed.
    Today, we will hear from individuals who play a role in 
strengthening vocational and technical education. We will get 
an overview of the current environment surrounding vocational 
and technical education. Additionally, two State directors will 
inform us how State leadership efforts can ensure quality, 
relevant and rigorous vocational and technical education. In 
addition, we will hear from a community college to learn how 
these institutions serve as a vital link between secondary 
schools and 4-year postsecondary institutions to improve 
technical education and training. And finally we will hear from 
a business representative to learn more about what is required 
to succeed in today's workplace.
    During the upcoming Perkins reauthorization, our challenge 
is to examine the current program to ensure that all vocational 
and technical education students have access to programs that 
are sufficiently rigorous in both their academic and technical 
content as well as provide clear connections with the education 
and training beyond high school that most Americans need for 
continued workplace success. We hope to learn from our panel of 
witnesses the recommendations regarding suggested changes to 
further improve Perkins; and we thank them and all of you for 
joining us.
    And I will yield to Congressman Kind for any opening 
statement he may have.
    [The prepared statement of Chairman Castle follows:]

  Statement of Hon. Mike Castle, Chairman, Subcommittee on Education 
            Reform, Committee on Education and the Workforce

[GRAPHIC] [TIFF OMITTED] T3569.001

                                ------                                


 STATEMENT OF HON. RON KIND, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF WISCONSIN

    Mr. Kind. Thank you, Mr. Chairman. And I do commend you for 
your leadership on this issue.
    I thank the panelists for your presence and anticipated 
testimony today on the very important goal of reauthorizing the 
Carl Perkins Vocational and Technical Education Act in this 
session of Congress. It has been kind of a heavy agenda for 
this committee, trying to reauthorize the higher education bill 
generally as well as the Workforce Investment Act, but I think 
vocational education is one of the more important investments 
that we have to make in the country to deal with the workforce 
development issues that we are facing.
    And I welcome all the panelists. I am especially pleased to 
have one of my own, the President of Chippewa Valley Technical 
College, Dr. Ihlenfeldt, joining us here today.
    This is a very important piece of legislation, especially 
when you take a look at the trends happening on a global scale. 
Other countries are getting it. There are major country 
infrastructure investments taking place right in China, India 
and many other parts of the world. And there are studies coming 
out, reports being submitted, that unless we are careful, we 
are going to start losing our ranking as one of the most 
innovative and creative countries when it comes to science 
degrees, engineering degrees, workforce development issues 
generally.
    In fact, I don't know how many of you noticed the New York 
Times article that was published in yesterday's paper, entitled 
U.S. Is Losing Its Dominance in the Sciences. And we are seeing 
more and more of that occurring.
    Mr. Chairman, without objection, I would like to submit 
this article for the record at this time.
    Chairman Castle. Without objection.
    [The information referred to follows:]

              U.S. Is Losing Its Dominance In the Sciences

By William J. Broad
May 3, 2004

    The United States has started to lose its worldwide dominance in 
critical areas of science and innovation, according to federal and 
private experts who point to strong evidence like prizes awarded to 
Americans and the number of papers in major professional journals.
    Foreign advances in basic science now often rival or even exceed 
America's, apparently with little public awareness of the trend or its 
implications for jobs, industry, national security or the vigor of the 
nation's intellectual and cultural life.
    ``The rest of the world is catching up,'' said John E. Jankowski, a 
senior analyst at the National Science Foundation, the federal agency 
that tracks science trends. ``Science excellence is no longer the 
domain of just the U.S.''
    Even analysts worried by the trend concede that an expansion of the 
world's brain trust, with new approaches, could invigorate the fight 
against disease, develop new sources of energy and wrestle with knotty 
environmental problems. But profits from the breakthroughs are likely 
to stay overseas, and this country will face competition for things 
like hiring scientific talent and getting space to showcase its work in 
top journals.
    One area of international competition involves patents. Americans 
still win large numbers of them, but the percentage is falling as 
foreigners, especially Asians, have become more active and in some 
fields have seized the innovation lead. The United States' share of its 
own industrial patents has fallen steadily over the decades and now 
stands at 52 percent.
    A more concrete decline can be seen in published research. Physical 
Review, a series of top physics journals, recently tracked a reversal 
in which American papers, in two decades, fell from the most to a 
minority. Last year the total was just 29 percent, down from 61 percent 
in 1983.
    China, said Martin Blume, the journals' editor, has surged ahead by 
submitting more than 1,000 papers a year. ``Other scientific publishers 
are seeing the same kind of thing,'' he added.
    Another downturn centers on the Nobel Prizes, an icon of scientific 
excellence. Traditionally, the United States, powered by heavy federal 
investments in basic research, the kind that pursues fundamental 
questions of nature, dominated the awards.
    But the American share, after peaking from the 1960's through the 
1990's, has fallen in the 2000's to about half, 51 percent. The rest 
went to Britain, Japan, Russia, Germany, Sweden, Switzerland and New 
Zealand.
    ``We are in a new world, and it's increasingly going to be 
dominated by countries other than the United States,'' Denis Simon, 
dean of management and technology at the Rensselaer Polytechnic 
Institute, recently said at a scientific meeting in Washington.
    Europe and Asia are ascendant, analysts say, even if their 
achievements go unnoticed in the United States. In March, for example, 
European scientists announced that one of their planetary probes had 
detected methane in the atmosphere of Mars--a possible sign that alien 
microbes live beneath the planet's surface. The finding made headlines 
from Paris to Melbourne. But most Americans, bombarded with images from 
America's own rovers successfully exploring the red planet, missed the 
foreign news.
    More aggressively, Europe is seeking to dominate particle physics 
by building the world's most powerful atom smasher, set for its debut 
in 2007. Its circular tunnel is 17 miles around.
    Science analysts say Asia's push for excellence promises to be even 
more challenging.
    ``It's unbelievable,'' Diana Hicks, chairwoman of the school of 
public policy at the Georgia Institute of Technology, said of Asia's 
growth in science and technical innovation. ``It's amazing to see these 
output numbers of papers and patents going up so fast.''
    Analysts say comparative American declines are an inevitable result 
of rising standards of living around the globe.
    ``It's all in the ebb and flow of globalization,'' said Jack Fritz, 
a senior officer at the National Academy of Engineering, an advisory 
body to the federal government. He called the declines ``the next big 
thing we will have to adjust to.''
    The rapidly changing American status has not gone unnoticed by 
politicians, with Democrats on the attack and the White House on the 
defensive.
    ``We stand at a pivotal moment,'' Tom Daschle, the Senate 
Democratic leader, recently said at a policy forum in Washington at the 
American Association for the Advancement of Science, the nation's top 
general science group. ``For all our past successes, there are 
disturbing signs that America's dominant position in the scientific 
world is being shaken.''
    Mr. Daschle accused the Bush administration of weakening the 
nation's science base by failing to provide enough money for cutting-
edge research.
    The president's science adviser, John H. Marburger III, who 
attended the forum, strongly denied that charge, saying in an interview 
that overall research budgets during the Bush administration have 
soared to record highs and that the science establishment is strong.
    ``The sky is not falling on science,'' Dr. Marburger said. ``Maybe 
there are some clouds--no, things that need attention.'' Any problems, 
he added, are within the power of the United States to deal with in a 
way that maintains the vitality of the research enterprise.
    Analysts say Mr. Daschle and Dr. Marburger can both supply data 
that supports their positions.
    A major question, they add, is whether big spending automatically 
translates into big rewards, as it did in the past. During the cold 
war, the government pumped more than $1 trillion into research, with a 
wealth of benefits including lasers, longer life expectancies, men on 
the Moon and the prestige of many Nobel Prizes.
    Today, federal research budgets are still at record highs; this 
year more than $126 billion has been allocated to research. Moreover, 
American industry makes extensive use of federal research in producing 
its innovations and adds its own vast sums of money, the combination 
dwarfing that of any other nation or bloc.
    But the edifice is less formidable than it seems, in part because 
of the nation's costly and unique military role. This year, financing 
for military research hit $66 billion, higher in fixed dollars than in 
the cold war and far higher than in any other country.
    For all the spending, the United States began to experience a 
number of scientific declines in the 1990's, boom years for the 
nation's overall economy.
    For instance, scientific papers by Americans peaked in 1992 and 
then fell roughly 10 percent, the National Science Foundation reports. 
Why? Many analysts point to rising foreign competition, as does the 
European Commission, which also monitors global science trends. In a 
study last year, the commission said Europe surpassed the United States 
in the mid-1990's as the world's largest producer of scientific 
literature.
    Dr. Hicks of Georgia Tech said that American scientists, when top 
journals reject their papers, usually have no idea that rising foreign 
competition may be to blame.
    On another front, the numbers of new doctorates in the sciences 
peaked in 1998 and then fell 5 percent the next year, a loss of more 
than 1,300 new scientists, according to the foundation.
    A minor exodus also hit one of the hidden strengths of American 
science: vast ranks of bright foreigners. In a significant shift of 
demographics, they began to leave in what experts call a reverse brain 
drain. After peaking in the mid-1990's, the number of doctoral students 
from China, India and Taiwan with plans to stay in the United States 
began to fall by the hundreds, according to the foundation.
    These declines are important, analysts say, because new scientific 
knowledge is an engine of the American economy and technical 
innovation, its influence evident in everything from potent drugs to 
fast computer chips.
    Patents are a main way that companies and inventors reap commercial 
rewards from their ideas and stay competitive in the marketplace while 
improving the lives of millions.
    Foreigners outside the United States are playing an increasingly 
important role in these expressions of industrial creativity. In a 
recent study, CHI Research, a consulting firm in Haddon Heights, N.J., 
found that researchers in Japan, Taiwan and South Korea now account for 
more than a quarter of all United States industrial patents awarded 
each year, generating revenue for their own countries and limiting it 
in the United States.
    Moreover, their growth rates are rapid. Between 1980 and 2003, 
South Korea went from 0 to 2 percent of the total, Taiwan from 0 to 3 
percent and Japan from 12 to 21 percent.
    ``It's not just lots of patents,'' Francis Narin, CHI's president, 
said of the Asian rise. ``It's lots of good patents that have a high 
impact,'' as measured by how often subsequent patents cite them.
    Recently, Dr. Narin added, both Taiwan and Singapore surged ahead 
of the United States in the overall number of citations. Singapore's 
patents include ones in chemicals, semiconductors, electronics and 
industrial tools.
    China represents the next wave, experts agree, its scientific rise 
still too fresh to show up in most statistics but already apparent. Dr. 
Simon of Rensselaer said that about 400 foreign companies had recently 
set up research centers in China, with General Electric, for instance, 
doing important work there on medical scanners, which means fewer 
skilled jobs in America.
    Ross Armbrecht, president of the Industrial Research Institute, a 
nonprofit group in Washington that represents large American companies, 
said businesses were going to China not just because of low costs but 
to take advantage of China's growing scientific excellence.
    ``It's frightening,'' Dr. Armbrecht said. ``But you've got to go 
where the horses are.'' An eventual danger, he added, is the slow loss 
of intellectual property as local professionals start their own 
businesses with what they have learned from American companies.
    For the United States, future trends look challenging, many 
analysts say.
    In a report last month, the American Association for the 
Advancement of Science said the Bush administration, to live up to its 
pledge to halve the nation's budget deficit in the next five years, 
would cut research financing at 21 of 24 federal agencies--all those 
that do or finance science except those involved in space and national 
and domestic security.
    More troubling to some experts is the likelihood of an accelerating 
loss of quality scientists. Applications from foreign graduate students 
to research universities are down by a quarter, experts say, partly 
because of the federal government's tightening of visas after the 2001 
terrorist attacks.
    Shirley Ann Jackson, president of the American Association for the 
Advancement of Science, told the recent forum audience that the drop in 
foreign students, the apparently declining interest of young Americans 
in science careers and the aging of the technical work force were, 
taken together, a perilous combination of developments.
    ``Who,'' she asked, ``will do the science of this millennium?''
    Several private groups, including the Council on Competitiveness, 
an organization in Washington that seeks policies to promote industrial 
vigor, have begun to agitate for wide debate and action.
    ``Many other countries have realized that science and technology 
are key to economic growth and prosperity,'' said Jennifer Bond, the 
council's vice president for international affairs. ``They're catching 
up to us,'' she said, warning Americans not to ``rest on our laurels.''

    Copyright 2004 The New York Times Company
                                 ______
                                 
    Mr. Kind. That is why I think today's hearing is important: 
to talk about where we are going with vocational education, the 
funding; what changes need to be occurring within the program 
dealing with the challenges of the 21st century; a global 
marketplace and where our students and workers are going to be 
able to find their roles and the jobs in which to compete on a 
global basis.
    There are many aspects of the act we have to delve into: 
the accountability provisions; finding out whether it has 
become too cumbersome, whether there are opportunities of 
streamlining that; the gender equity issues again; addressing 
the aging population and the fact that we have close to 80 
million baby boomers rapidly approaching retirement, and what 
this is going to mean to the workforce of this country; and how 
the community and technical colleges throughout the Nation are 
going to be playing a crucial role, I believe, in dealing with 
all of that. Some big issues.
    I am glad to see we have a distinguished panel to speak on 
those issues; and just to indulge me, a couple of remarks about 
Dr. Ihlenfeldt.
    He has been the President of CVTC since 1994, and he has 
been doing incredible things to bring the technical school in 
Eau Claire, Wisconsin, the heart of my congressional district, 
as well as the technical school system in Wisconsin into 
position for the challenges of the 21st century. A lot of 
innovative programs: the Health Academy partnering with high 
schools and students, trying to deal with the shortage of 
health care providers in the Chippewa Valley area; a recent 
announcement on moving forward on a nanotechnology; very 
involved in a host of economic development issues. I have been 
very impressed with his willingness to try form these public-
private partnerships and what we need to do, working together, 
to deal with the challenges that all of us are facing in 
creating jobs and keeping good-paying jobs in our own 
community. And I am looking forward to working with him on a 
host of other issues as we proceed.
    In fact, most recently, unfortunately, the Chippewa Valley 
area had back-to-back-to-back announcements of companies 
closing up shop, affecting close to 600 workers and jobs. It 
was Dr. Ihlenfeldt, along with a host of other local community 
leaders, that formed a rapid response team in order to deal 
with the needs of those workers and their families; and a lot 
of it is going to be reintegrating education and job training 
programs in order to find them a place to land in a very 
turbulent and difficult economic environment.
    Thank you, Mr. Chairman, for hosting this hearing. I thank 
the witnesses and look forward to their testimony and yield 
back my time.
    Chairman Castle. Thank you, Mr. Kind. We appreciate your 
statement and look forward to going through some questions and 
answers with the witnesses.
    Let me try to explain to everybody in the room what we are 
doing. We are talking about a reauthorization process. About 
every 5 or 6 years, generally, for most pieces of legislation, 
we review them and go through what is called a reauthorization 
process in which we update them. It is our hope that we can 
work it out in a bipartisan way. Sometimes we can't; sometimes 
there are small issues that prevent that. But I think we are 
relatively close on vocational education, and it is hopefully 
something we can do in the next month or so and take it to the 
floor of the House of Representatives. That remains to be seen.
    We had, as I indicated, one other panel--last week, I 
believe--and this panel today. The testimony of the witnesses 
is vitally important, the written testimony, because all of the 
various staff will look at that and analyze it in terms of 
adding to what we are doing.
    The testimony today is important. The witnesses will have 5 
minutes, after which I start banging on the gavel. And we have 
thrown the gavel here--no, just kidding about that. Hopefully, 
you can keep your testimony to 5 minutes, and then we will have 
some Q&A. It may seem short to you, but believe me, we do parse 
pretty carefully the testimony you have submitted, so you don't 
have to read it into the record. And we have tried, and I think 
we have in this case gotten--obtained a balanced panel that 
represents different components and interests of vocational 
education outcomes, all the way from the education system to 
the community college system to the employment base. So that is 
the thrust of what we are doing.
    The methodology we will follow is, I am going to read 
introductions of several of you. Mrs. Biggert will introduce a 
witness and Mr. Kind has already spoken about Dr. Ihlenfeldt 
and may again for a moment or so; and then you will have 5 
minutes to make your presentation. And we will go from Ms. 
Brand to Ms. Quinn, and then we will each take 5 minutes for 
questions and answers. So that is basically how we will proceed 
with the rest of the day.
    With that, I will go through some of the introductions, and 
we will start with Ms. Betsy Brand, who has been the Co-
Director of the American Youth Policy Forum since 1998. In this 
capacity, Ms. Brand organizes a portion of the speaker forums, 
field trips and special meetings to bring policymakers together 
on issues that affect youth. Previously, she served as a 
Minority Legislative Associate for the House Committee on 
Education and Labor, and subsequently served with Senator Dan 
Quayle as a professional staff member on the Senate Labor and 
Human Resources Committee.
    In 1989, Ms. Brand was appointed Assistant Secretary For 
Vocational and Adult Education at the U.S. Department of 
Education. From 1993 to 1998, Ms. Brand operated a consulting 
firm, Workforce Futures, Inc., focusing on policy and best 
practices affecting education and workforce preparation.
    Our second witness will be Mrs. Jean Stevens, who currently 
serves as the Assistant Commissioner of Curriculum and 
Instructional Support for the New York State Education 
Department. Her responsibilities include leadership and 
oversight of all curriculum areas, summer institutes, 
technology policy and math and science partnerships. Mrs. 
Stevens is also responsible for policy and program development 
for adult education, adult and secondary career and technical 
education, Tech Prep and High Schools That Work. She serves on 
the department's School Leadership Implementation Group and is 
on the agency steering committee for the implementation of the 
No Child Left Behind legislation.
    And I call on Mrs. Biggert, who will now introduce.
    Mrs. Biggert. Thank you very much, Mr. Chairman.
    I always say my colleagues can learn from what we are doing 
back in Illinois. I say it so often that they really get tired, 
I think, but it is true.
    I am very proud today to introduce a fellow Illinoian, 
Sandy Dunkel. Ms. Dunkel is the Division Administrator of 
Career Development for the Illinois State Board of Education 
where she serves as the State Director of Career and Technical 
Education. In this position, she oversees all State and Federal 
programs designed to prepare students for the challenges of 
higher education and the workplace.
    She currently serves on the board of the National 
Association of State Directors of Career and Technical 
Education and many other State and Federal committees.
    Ms. Dunkel has been with ISBC for 24 years. In her time 
there, she has served in a number of positions working with 
such programs as gender equity, workforce preparation, Tech 
Prep, Perkins and the Jobs For Illinois Graduates program. 
Prior to joining the State agency, she taught junior high home 
economics for 4 years in Illinois and Florida.
    She holds a Bachelor's degree in Home Economics Education 
from Eastern and a Master's degree in Vocational Education 
Administration from the University of Illinois at Urbana-
Champaign. So she has a wealth of experience.
    Thank you very much for joining us. I look forward to your 
testimony, as do the rest of my colleagues.
    Chairman Castle. Thank you, Mrs. Biggert, and we welcome 
you, too.
    And let me turn to Mr. Kind to see if there is anything 
further he wants to say about Dr. Ihlenfeldt.
    Mr. Kind. I think I embarrassed him good enough today.
    Chairman Castle. And finally--our final witness will be Ms. 
Brenda Quinn. She has 20 years of senior level managerial 
experience with high technology, engineering and manufacturing 
companies. She provides hands-on leadership and direction for 
corporate and business development, marketing sales, human 
resources, financial management and strategic development.
    During her career at Intelitek, she has focused on 
aggressive scheduling and financial objectives to support 
international operations that are effective in managing 
multiple sites and staffs that are culturally and functionally 
diverse.
    And I have already given the other instructions, so we are 
ready to go. Ms. Brand, we will turn to you for your lead-off 
testimony.

 STATEMENT OF BETSY BRAND, CO-DIRECTOR, AMERICAN YOUTH POLICY 
                             FORUM

    Ms. Brand. Thank you, Chairman Castle, Congressman Kind and 
members of the Subcommittee; thank you very much for the 
opportunity to testify on the subject of strengthening 
vocational education.
    As you said, Chairman Castle, the need for higher literacy, 
numeracy, communication and interpersonal skills in the 
workplace has grown over the past decade and will continue to 
grow. New evidence demonstrates that the English and math 
skills that high school graduates must master for success in 
postsecondary education are the same as those needed in high-
performance careers. Also, more jobs require postsecondary 
education and the labor market rewards those who take four or 
more occupational courses in high school.
    There are many high schools not preparing our youth well 
for their careers and livelihoods. Problems at the secondary 
school level have been chronicled in a number of reports that 
focus on dropout rates in large urban high schools as high as 
60 percent; poor student performance in math, science and 
English; the structure and culture of many high schools that 
allows too many students to fall through the cracks or get by 
with low-level courses; unmotivated students because they fail 
to see the relevance of what they are learning; and the lack of 
clear pathways to postsecondary education and careers.
    Current high school reform efforts to improve student 
outcomes share several common themes and these are themes that 
Federal investment strategy and career and technical education 
can easily support and contribute to. These strategies include 
smaller, personalized student-focused learning, rigorous 
integrated curriculum linked to standards, finding ways to 
connect youths with adults in a meaningful, supportive manner; 
supports for students, including college and career exploration 
and counseling; making learning relevant by linking it to 
careers; using the community for learning; and helping students 
advance more smoothly from secondary to postsecondary 
education.
    As a strategy to help improve positive CTE, in Rigor and 
Relevance, which I believe was distributed to many of your 
offices recently, I recommend a strategy for Federal funding, 
that funding be used to develop and build the capacity of 
States, school districts and schools to offer and support high-
quality CTE programs of study.
    A program of study is defined as a multiyear, grades 9-
through-14 or 9-through-16 sequence of courses that integrates 
core academic knowledge with technical and occupational 
knowledge leading to an industry certificate or an Associate's 
or Bachelor's degree. In grades 9 and 10, courses would focus 
primarily on academic foundations, using the context of careers 
to make core curriculum relevant and meaningful. In grades 11 
and 12, students would continue to take core required 
curriculum as well as technical electives and integrated course 
work in their chosen career field.
    The pathways between high school and postsecondary 
education with options for dual enrollment would exist; 
internships in the work-based learning would be provided; early 
and ongoing college and career counseling and exploration would 
be available; and students in schools would be held to the high 
standards consistent with No Child Left Behind, as well as 
measuring labor market outcomes.
    The main difference between this concept of a program of 
study and what is currently authorized under the Perkins Act is 
that a program of study is a comprehensive, well-thought-out, 
rigorous and articulated program that begins in the 9th grade, 
and it ends with the attainment of certification or degrees.
    The bulk of the funds in a program-of-study approach would 
be used to support rigorous and integrated teaching and 
learning and for professional development for both academic and 
CTE teachers at the secondary and postsecondary levels.
    Let me provide a few more specific recommendations for 
reauthorization. First, it is clear that high school students 
need more than pure academic preparation, and preparation for 
careers is an important goal. The Perkins Act has a critical 
role to play in preparing our youth for a changing economy, 
which means both academic and occupational skills. Also, it is 
very important for students to understand how their studies are 
relevant and linked to their future, and CTE can help make this 
connection. We need continued support for career and technical 
education.
    Second, I would suggest eliminating the statutory 
restriction that funding can only be used for CTE programs that 
lead to less than a baccalaureate degree. This current law 
provision creates an artificial barrier between 2- and 4-year 
colleges and limits learning for students. Perhaps at one 
point, this barrier made sense, but in today's economy, we 
should encourage students to pursue the highest degree 
possible.
    Third, create and support academically rigorous programs of 
study that are comprehensive and span grades 9 through 14 or 
16, as I just described. Federal funds should be used to 
support these programs that allow freedom of design at the 
State and local level. As you do that, I believe you can build 
on Tech Prep, career academies, Career Clusters and early 
college-high school models that are in the development of 
programs of study. These models already possess many of the 
elements of a program of study and they can be made more 
comprehensive and rigorous.
    Lastly, I would suggest changing from entitlement funding 
to a competitive grant at the local level. In my experience of 
visiting hundreds of high schools and CTE programs over many 
years, one thing has consistently troubled me. It is that many 
schools look at the Perkins Act as an entitlement which they 
will receive regardless of their efforts in helping students 
and whether those students learn and succeed.
    I believe that by changing the grant from an entitlement to 
a competitive one, schools will be forced to reexamine their 
programs in much greater detail and will be forced to improve 
much more quickly.
    Thank you for the opportunity to testify, and I would be 
happy to respond to questions.
    Chairman Castle. Thank you, Ms. Brand.
    [The prepared statement of Ms. Brand follows:]

  Statement of Betsy Brand, Co-Director, American Youth Policy Forum, 
                             Washington, DC

[GRAPHIC] [TIFF OMITTED] T3569.002

[GRAPHIC] [TIFF OMITTED] T3569.003

[GRAPHIC] [TIFF OMITTED] T3569.004

[GRAPHIC] [TIFF OMITTED] T3569.005

[GRAPHIC] [TIFF OMITTED] T3569.006

[GRAPHIC] [TIFF OMITTED] T3569.007

                                ------                                

    Chairman Castle. Mrs. Stevens.

 STATEMENT OF JEAN STEVENS, ASSISTANT COMMISSIONER, OFFICE OF 
CURRICULUM AND INSTRUCTIONAL SUPPORT, NEW YORK STATE EDUCATION 
                           DEPARTMENT

    Ms. Stevens. Mr. Chairman, Congressman Kind and members of 
the Subcommittee, thank you for the opportunity to appear 
before you to share the successes in New York State's current 
technical education system, as well as to offer recommendations 
on how to improve and expand the Federal investment through 
Perkins.
    As the Assistant Commissioner in the Office of Curriculum 
and Instructional Support at the New York State Education 
Department, I am responsible for current educational--adult 
education in all curriculum areas. I also serve on the board of 
directors of the National Association of State Directors and 
Career Technical Education Consortium.
    As Assistant Commissioner, I coordinate both secondary and 
postsecondary career technical educational programs. We serve 
over 272,000 secondary students, 129,000 postsecondary students 
and 16,000 adult learners. Thirty-two percent of New York's 
secondary students are enrolled in career technical educational 
courses; and 259,000 students participate in work-based 
learning experiences orchestrated in cooperation with 36,000 
New York State employers.
    Our students are doing well. Ninety-six percent of career 
technical education concentrators receive a high school 
diploma, and almost 94 percent of our secondary career 
concentrators are employed in the military or pursuing 
postsecondary education shortly after graduation.
    There are many successes I would like to share, but my 
remarks today will highlight the critical role of effective 
State leadership as it has in ensuring quality in career 
technical education by leading innovation and ensuring 
accountability.
    New York State leadership efforts focus on ensuring 
quality, relevant and rigorous career technical education. Most 
recently, we established an approval process that directly 
impacts the academic and technical performance of our students. 
To participate, each local educational agency or our regional 
career tech centers must develop a cohesive program of courses 
with a direct path to college or the beginning of a career. 
Each approved program must meet all requirements of program 
quality, including, but not limited to, appropriate 
certification of all program teachers, sequential curriculum 
that addresses our Career Development and Occupational Studies 
Learning Standards, core academic learning standards at the 
commencement of high school level, current business/industry 
skills standards, postsecondary articulation, and the 
availability of work-based learning experiences. Also, each 
approved program must have a technical assessment based on 
industry standards, if available, and increased availability 
for college credit through articulated courses.
    The program approval process has done much to improve the 
transition between secondary and postsecondary education by 
ensuring student competencies, skills and knowledge through 
meaningful integration of academic and technical education. A 
key component of our program approval process is the alignment 
to industry standards and certifications.
    Unfortunately, not all programs or career areas have 
standards, certifications or assessments. This is one of our 
biggest challenges in measuring technical competency. I believe 
Congress should establish an assessment fund that could support 
the creation of technical assessments by the 16 Career 
Clusters.
    Career Clusters are a response by the career technical 
education community to establish common expectations in 
language between education, both secondary and postsecondary, 
and the workforce. It is for these reasons I believe specific 
support for Career Clusters and related technical assessments 
would assist States and locals in better meeting labor market 
needs in achieving the goals and improve integration and 
transition.
    Accountability is another important State leadership 
responsibility critical to ensuring quality. In New York, we 
have made progress, but we must continue to work to make data 
real, connecting what happens in the classroom every single 
day. Data cannot solely consist of filling out a report; it 
must be a connected learning and performance management tool. 
Strengthened provisions in Perkins can improve the connection 
between the uses of funds and accountability requirements. 
Using accountability data in a responsible and meaningful way 
will result in the identification of strengths and weaknesses 
in specific programs and in career technical education as a 
whole.
    In New York, we work with our schools that are struggling 
to meet performance goals by working on improvement programs 
which include additional technical assistance and professional 
development. In order to use Perkins accountability to drive 
change, States need additional legislative authority to be able 
to redirect or withhold funds from local programs that do not 
meet performance expectations where, despite intervention, 
improvement does not occur.
    My final recommendation is that the new law require a 
single, comprehensive State career technical education plan. 
This will help align the current separate investments supported 
under the Perkins Act--the Basic State Grant, Tech Prep and 
Section 118--to better meet the needs of our students. A single 
plan will reduce administrative costs, ensure nonduplication of 
efforts and, most importantly, align and enhance the 
complementary nature of these sections. Integration of funding 
streams through a single, comprehensive State plan does not 
mean a dilution of focus or support, but instead an alignment 
of effective programs and practices to a common vision.
    New York State's accomplishments are the result of strong 
State administration and leadership. State leadership is about 
leading change, facilitating partnerships, ensuring economy of 
scale, leveraging multiple resources and accountability, all of 
which support quality career technical education.
    My colleagues around the country and I strongly encourage 
Congress to support State's rights by continuing Perkins 
provisions that allow States to select their sole State agency 
and determine the appropriate split of funds between secondary 
and postsecondary. Further, we recommend the level of funding 
reserved to the State level be maintained so innovation such as 
those I outlined today can continue.
    Thank you for the opportunity to share these successes and 
recommendations. I look forward to working with you as you 
develop new legislation that builds on and expands on our 
current successes and promotes innovation in our Nation's 
career technical education system.
    Chairman Castle. Thank you, Ms. Stevens.
    [The prepared statement of Mrs. Stevens follows:]

    Statement of Jean C. Stevens, Assistant Commissioner, Office of 
     Curriculum & Instructional Support, New York State Education 
                      Department, Albany, New York

[GRAPHIC] [TIFF OMITTED] T3569.008

[GRAPHIC] [TIFF OMITTED] T3569.009

[GRAPHIC] [TIFF OMITTED] T3569.010

                                ------                                

    Chairman Castle. Ms. Dunkel.

  STATEMENT OF SANDRA DUNKEL, DIVISION ADMINISTRATOR, CAREER 
    DEVELOPMENT DIVISION, ILLINOIS STATE BOARD OF EDUCATION

    Ms. Dunkel. Chairman Castle, Congressman Kind and other 
Subcommittee members, I just have to tell you, this is my first 
time ever presenting testimony and it is an awesome experience. 
I have two teenage boys at home, so that is exactly what they 
would say.
    While preparing my testimony, there were many issues in the 
Federal legislation that came to mind that I would like to 
address, if only I had more time. For example, the continuing 
need for State leadership, the importance of integrating 
academic and technical skills, the transition of students from 
secondary to postsecondary education, the important role that 
career and technical ed plays in economic development in 
preparing a skilled workforce, and the successes and challenges 
we have faced in developing an effective accountability system.
    While all of these issues are important to us in Illinois, 
I am going to focus my comments on the issue of engaging and 
enabling every student to identify a career path and to give 
them the tools to follow that path.
    Career technical education plays a key role in ensuring 
that no child is left behind in our system. Throughout the 
Nation, the implementation of Career Clusters is helping 
schools expand their vision for career and technical ed by 
aligning the needs of the economy. This broadened focus ensures 
that students have the opportunity to learn about an array of 
careers rather than just specific jobs.
    Career Clusters help to align and integrate academic, 
technical and employability skills and serve an important role 
in career guidance and counseling. Clusters can also be a 
valuable tool in breaking down gender stereotypes, because 
students are exposed to numerous professions in that career 
area, not just one.
    The reauthorization of Perkins in 1998 eliminated the $1 
million set aside for gender equity and programs for single 
parents and displaced homemakers, the requirement for a State 
equity coordinator and the emphasis on services for special 
populations. These provisions were replaced with an 
accountability measure for participation and completion of 
students pursuing nontraditional careers, and the State 
leadership set aside between $60- and $150,000.
    A national study of the results of this policy shift after 
only 1 year of implementation of Perkins III resulted in over 
50 percent of programs reporting a decrease in funding and over 
70 percent reporting services to students significantly 
decreased. In Illinois, prior to 1998, 50 programs assisted 
over 78,000 single parents and displaced homemakers and 
individuals pursuing nontraditional employment to enable them 
to become economically self-sufficient. In addition, 30 gender 
equity projects were working to eliminate sex bias and sexual 
stereotyping and to increase nontraditional enrollments.
    Illinois no longer has a full-time equity coordinator and, 
at the State level, most of the programs and services have not 
continued.
    While it may seem I am painting a fairly grim picture here, 
we have some glowing numbers perking in Illinois. The 
accountability measure for nontraditional participation and 
completion of students in career and tech ed programs has given 
the motivation to continue to focus on this issue in new and 
different ways. We continue to use State leadership funds to 
provide technical assistance and professional development to 
schools and colleges and to help improve the performance of 
special population students.
    As we build a history of accountability in nontraditional 
programs, we have the opportunity to provide State leadership 
to encourage schools and community colleges to implement 
strategies to improve their performance. For example, in the 
Joliet area, females aged 14 through 18 can attend the High 
Tech Summer Camp where they are able to experience high-skill, 
high-wage occupations firsthand.
    Kenwood High School in Chicago will implement Project Lead 
the Way this fall, a pre-engineering curriculum with a goal to 
increase the number of students prepared to enter engineering-
related occupations, particularly for minorities and females.
    Illinois is committed to continuing to ensure that no child 
or adult is left behind in career and technical education, and 
encourages you to consider the following recommendations to 
improve the ability of States and locals to fulfill this goal.
    No. 1, support State leadership to assist locals in 
eliminating any and all barriers faced by students in pursuing 
a career of their choice;
    Two, continue to support the Perkins accountability system 
to measure the success of every student, including special 
populations and students pursuing nontraditional careers;
    Next, create a direct connection between accountability and 
how local funds are being used in order to drive program 
improvement; and
    Finally, support continued expansion and implementation of 
Career Clusters at the State and local levels.
    I want to thank you for this opportunity.
    Chairman Castle. Thank you, Ms. Dunkel. You did very well 
on your first try here.
    [The prepared statement of Ms. Dunkel follows:]

 Statement of Sandy Dunkel, Division Administrator, Career Development 
   Division, Illinois State Board of Education, Springfield, Illinois

[GRAPHIC] [TIFF OMITTED] T3569.011

[GRAPHIC] [TIFF OMITTED] T3569.012

                                ------                                

    Chairman Castle. Dr. Ihlenfeldt.

STATEMENT OF WILLIAM A. IHLENFELDT, PRESIDENT, CHIPPEWA VALLEY 
       TECHNICAL COLLEGE DISTRICT, EAU CLAIRE, WISCONSIN

    Dr. Ihlenfeldt. Good afternoon, Mr. Chairman and members of 
the Subcommittee. It is an honor for me to testify before you 
today as one representative of the Nation's technical and 
community colleges. I am also pleased to testify before our 
Member of Congress, Representative Ron Kind.
    CVTC is one of 16 technical colleges of the Wisconsin 
Technical College System. Our vision is to be a dynamic 
community partner dedicated to adding value through learning 
and student success. The college operates on a business model, 
emphasizing career-centered, public-private sector 
partnerships. That model stimulates innovation and allows rapid 
response to the businesses and industries and communities we 
serve.
    The most recent example is a partnership between the 
University of Wisconsin, Marquette University and CVTC to 
provide team-based medical training for family practice 
residents, dental residents and students in our 14 allied 
health and nursing programs at the college. This rapid-response 
model is addressing the medical practitioner shortage in the 
region.
    Community colleges provide the gateway to this Nation's 
workforce by serving as the vital linkage between the secondary 
schools and the senior postsecondary institutions to expedite 
technical education and training. Chippewa Valley Technical 
College, for example, serves over 850 high school students 
annually who receive dual credit in Associate degree programs. 
Perhaps the best illustration that I can give of this 
partnership is CVTC's Health Academy that prepares high school 
youth to become registered nurses, graduating from high school 
after having completed 1 year of their postsecondary technical 
education. This unique program, by the way, is funded through 
the Perkins Tech Prep demonstration program.
    At the same time, the college has articulated agreements 
with all major universities in the State that allow hundreds of 
students and graduates to transfer each year. It has been 
demonstrated that community college graduates are better 
prepared to meet the rigors of this country's universities when 
their careers necessitate that advanced degree. Unique pathways 
like inverted degrees fill that career objective without 
repeating competencies already in place for the job market.
    This Nation depends on community college graduates to fill 
about 80 percent of the jobs, ranking from health care to the 
automation of our industries, to the security and protection we 
need in these very, very difficult times. Employers today, to 
be successful, need a continuous and rapid flow of graduates 
and continuous training. In the majority of the Nation's high 
schools, the technical training necessary to prepare students 
for this type of rigor is not and will not be possible. Many, 
especially in our district, are too small, lacking in budgets 
and sophisticated technical equipment to educate students for 
the advanced technology of today. This is where creative 
partnerships with local community colleges can fill the needs 
and do it cost effectively.
    Many community college students are place or situation 
bound. They look to the local community college as their only 
hope for the future. If they are to move into a career and 
become productive members of our communities, then community 
colleges like CVTC have to provide them with the opportunities, 
and the support many times, to make that a reality.
    Services at our community colleges are designed for a wide 
variety of students, a wide range of students. They include 
those who have not succeeded in high school, those who have 
been out of school for a long period of time and need a career 
change, and those who are interested in new high-technology 
careers like nanotechnology. Imagine the support systems that 
are necessary for that range of preparation. That is why 
Perkins funding is critical at the community college level. No, 
it is critical for the future of the economy of the United 
States to keep that funding available for the students at our 
Nation's community colleges.
    Last year, the Wisconsin Technical College System enrolled 
128,000 special population students. The State grant provided 
direct services for many of them, including career guidance, 
academic support, remediation and internships. That is putting 
our dollars to work, that is putting America to work, and it is 
doing it in a cost-effective manner. No other system in this 
country can provide that direct impact on our workforce and do 
it as rapidly as the community college system. Your community 
colleges are the glue between the systems that get people into 
the workforce.
    Perkins is the only continuing Federal commitment to 
technical education. The elimination or reduction of this 
program would be disastrous at a time when our economy needs 
extensive revitalization.
    Your community colleges are making the United States work, 
and with your help through Perkins we will succeed. We will be 
the liaison that brings the three systems of education together 
to confirm our status as the economic power of this globe.
    Thank you for your time and commitment to the future of the 
community colleges of this Nation. We will not let you down.
    Chairman Castle. Thank you, Dr. Ihlenfeldt. Almost sounded 
like a political campaign.
    [The prepared statement of Dr. Ihlenfeldt follows:]

    Statement of Dr. Bill A. Ihlenfeldt, President, Chippewa Valley 
                Technical College, Eau Claire, Wisconsin

[GRAPHIC] [TIFF OMITTED] T3569.013

                                ------                                

    Chairman Castle. Ms. Quinn.

    STATEMENT OF BRENDA QUINN, PRESIDENT AND CEO, INTELITEK

    Ms. Quinn. I would like to thank you, Chairman Castle and 
Representative Kind and members of the Education Reform 
Subcommittee for inviting me to appear before you today. I will 
be discussing the personnel needs of high tech companies and 
the role of career and technology education.
    When Congress passed the Smith-Hughes Act in 1917, one of 
its intentions was to move the U.S. from an agrarian to a 
manufacturing community. To make that transition, Smith-Hughes 
established Federal support in the education and training of 
citizens. Its focus was on people.
    To be successful as an economy, CTE was established as a 
way of keeping people up to date. In my opinion, that is still 
CTE's mission today. Perkins is still in the business of 
keeping students up to date, but to update to serve a highly 
technical economy in order to satisfy the mission.
    Intelitek is part of the new high tech economy. We look for 
employees with new and broader knowledge and skills than the 
economy of the past. Intelitek produces Computer Numerically 
Controlled bench-top machines, Computer Integrated 
Manufacturing Systems and CAD/CAM software. Our customers, in 
greater than 100 Fortune 500 companies, as well as 5,000 
domestic and worldwide corporations, are using our machines in 
high-volume production, graphic electrode machining, mold 
making, rapid prototyping and high-precision machining.
    We are also a leading developer, producer and supplier of 
comprehensive solutions for training and engineering, automated 
production and manufacturing. We design and produce automated 
workcells for training anywhere from small-scale, flexible 
manufacturing systems to complete Computer Integrated 
Manufacturing Systems. These training systems have been 
installed in over 20,000 businesses, colleges, universities and 
schools, both domestic and worldwide.
    I am sure that all sounds very high tech, and indeed it is. 
It would have sounded even more high tech if I had used the 
acronyms that I usually would use such as CAD, CAM, CIM and 
CNC.
    The people who work in my industry have titles such as 
robotic technicians, CAD designers, industrial and automation 
engineers. Each of these people requires education and training 
beyond high school. The technology they employ is central to 
American advances in productivity. But in the end, it isn't the 
technology that is important; it is the people. Our people have 
the knowledge and ability to stay up to date, and that is the 
mission of career technical education.
    Intelitek employs just under 50 employees; 27, which is 
greater than 50 percent, come from career technical education 
backgrounds and moved through the 2-year community college 
system and/or the 4-year engineering degrees, and those are 
very powerful numbers.
    There are at least three things I look for in an employee. 
One is a solid grounding in academics. At Intelitek, we expect 
our employees and the people who design, build, service and 
maintain our machines and software to have a working knowledge 
of math, that is, from basic math, algebra, trigonometry, 
science and language skills.
    Second, I am looking for technical skills. Our employees 
must have above-average computer skills, understand the 
principles of hydraulics, pneumatic, programmable logic 
controls, sensors, process control, mechanisms, electronics, 
vision and mechanical measurement systems, quality control 
systems, robotics, CAD/CAM, CNC and automation; the technology 
of how all of these things work together.
    Too often, however, people believe that academic 
achievement is a replacement for technical skills. It isn't. 
Successful employees must be able to apply their knowledge 
consistently for my company to succeed, and those technical 
skills are learned from hands-on application, not through 
theory alone.
    To me, that is the genius behind CTE. It teaches academics 
through application. It teaches the theoretical and the 
application. Both are essential. That is one reason why 
Intelitek is signatory to the National Association of State 
Directors of CTE Consortium in support of career technical 
education.
    Third, I look for what people call ``soft skills'' and some 
others call ``employability skills.'' These are the goal-
setting, resource management and communication skills. One of 
the most important skills in the high tech industry is 
teamwork. It is not academics, but real people skills. High 
tech industries don't have individuals manufacturing parts. We 
have teams managing processes. Every team member has to do his 
or her part for the team to be successful. These skills are 
taught in CTE by student organizations, such as SkillsUSA, an 
association that Intelitek has supported for many years.
    I have worked for 12 years with SkillsUSA, one of the 
student organizations authorized for funding under Perkins. I 
serve on the board of SkillsUSA Youth Development Foundation 
and on the contest technical committees for Automated 
Manufacturing Technology and Robotics and Automation 
Technology. All 77 of the SkillsUSA Championships contests are 
run using industry standards for entry-level employment, and 
they are updated regularly to keep the competitions current 
with industry needs and practices. Both of the contests 
Intelitek supports are team contests to parallel practice in 
industry.
    I am going to close with three recommendations to the 
Committee regarding the Perkins Act. I look forward to 
amplifying these points during this hearing.
    First, stay the course. As Congress intended, the Perkins 
Act has already had an impact on the academic achievement of 
students and articulation between high schools and 
postsecondary instruction. Both were needed and both need to 
continue.
    Second, increase funding for CTE. I ask our government to 
continue to invest with me. Small employers have historically 
counted upon CTE as a source of training for their new hires 
more than any other source. Some smaller States, such as New 
Hampshire, rely heavily on Federal support to maintain their 
CTE programs.
    Furthermore, the instructional facilities are used by 
industry to update training for their employees. I have 
invested in employee training to ensure my organization's 
survival. As an employee benefit, I offer tuition reimbursement 
as well as internal corporate training programs. I do this to 
remain competitive in a global industrial market. I need the 
competitive advantage that career technical education provides 
my organization, because now I must do it quicker, smarter and 
at less cost than ever before.
    Third, integrate industry standards and certification such 
as NIMS, the National Institute of Metalworking Skills into CTE 
high school and postsecondary instructional programs. These are 
industry led and defined to ensure that education and industry 
communicate with one another to provide the most proficient 
technical skills required for success and full employment in 
the workforce.
    In conclusion, Chairman Castle and members of this 
committee, I wish to thank you once again for asking me to 
appear before you today, along with this distinguished panel. I 
would like to conclude by commending you, the members of the 
House Committee on Education and the Workforce, for your 
continuing and farsighted work to keep today's students and 
tomorrow's future workforce up to date and prepared to support 
America's industry.
    [The prepared statement of Ms. Quinn follows:]

 Statement of Brenda Quinn, Chief Executive Officer, Intelitek, Inc., 
                       Manchester, New Hampshire

[GRAPHIC] [TIFF OMITTED] T3569.014

[GRAPHIC] [TIFF OMITTED] T3569.015

                                ------                                

    Chairman Castle. We thank each of the witnesses here today.
    What I gather from what you all said is that the programs 
that we have in place now, even at the Federal level, are 
working reasonably well; perhaps a little tightening here and 
there and perhaps more dollars would be helpful, which is 
basically positive. We don't always--sometimes these programs 
are ripped apart, and I didn't get that sense at all.
    I also believe that the handoff and the coordination from 
our vocational secondary to postsecondary to the employer 
market is starting to work better perhaps than it did before, 
and we appreciate that.
    With that, we will go to questions by members, and I will 
yield to myself first for 5 minutes to ask a few questions. And 
I want to set a basis on what others have said.
    For instance, Ms. Quinn, who talked about the workplace and 
Dr. Ihlenfeldt has a very clear calling for what they are 
looking for and what they need to do at the community college 
level, and something that Ms. Dunkel actually said, which is 
the Career Clusters.
    But I want to ask Ms. Brand and Mrs. Stevens, based on 
their backgrounds--I see this a little bit in Delaware--but I 
worry that vocational schools are trying to pigeonhole students 
when I don't think they necessarily should be, both in terms of 
the academic courses, but in addition to having the broad 
skills to go out in the workplace. I think the old days of 
training people as pure plumbers and carpenters may be behind 
us. And I would be interested in your thoughts on that, since 
Mrs. Stevens is in the field and Ms. Brand oversees some of 
these things, your thoughts on what I just stated.
    Mrs. Stevens. It seems to be changing. Is it changing 
rapidly enough? If not, is there something we should be doing 
in this reauthorization to deal with that particular issue? 
Because, to me, the greatest problem we have in vocational 
education is staying up with the changes that are happening out 
there. It is a very fast-changing world, and are we doing the 
right things? We only look at this every 5 or 6 years, so this 
is our opportunity to look at this for the next 5 or 6 years.
    Ms. Brand. I think for too long children and youth have 
been pigeonholed into lower-track courses and to low 
expectations. And thanks to No Child Left Behind and some of 
the other reform efforts that have been put into place, I think 
that is changing, but we still have a lot attitudes that need 
to be changed at the school level.
    Teachers, in particular, need to understand that students 
can achieve much harder and much greater work if they are given 
the support and the expectations for them are high. So it is a 
cultural and attitudinal change that needs to catch up across 
all of career technical education. It is happening in many 
places, but that is not always the case.
    Career guidance and counseling is a large part of what 
needs to happen, as well as individual support for students, so 
that they understand that they have many options ahead of them. 
Career guidance and counseling is in pretty poor shape in most 
high schools. Guidance counselors are overwhelmed. I think the 
numbers in California are a thousand students to one. And in 
most urban high schools, guidance counselors have to deal with 
4- to 600 kids. It is impossible for them to deal with the 
kinds of aspirational things that they need to deal with them 
on.
    Early guidance and counseling, both focused on pathways 
connecting them to postsecondary education, making it easy for 
them to move through that system, I think are changes that need 
to be considered by the committee.
    Chairman Castle. Mrs. Stevens, I will use myself as an 
example. I graduated from high school and had no idea what I 
wanted to do, so I went to a liberal arts school and graduated 
from there and had no idea what I wanted to do. And went to law 
school and still wasn't sure what I wanted to do. And yet I 
know there are 9th graders who are being told, you should make 
a choice; and it doesn't seem to resonate with the workplace 
today in terms of the broader skills that children need.
    I was impressed by your testimony in this area, but I was 
wondering, how are you adjusting that part of it and should we 
be adjusting it?
    Ms. Stevens. I think there are a couple of things I would 
like to speak to.
    As part of the effort we have with career guidance in 
partnership with our New York State Department of Labor, we 
have developed what is called Career Zone. It is an Internet 
career guidance tool, if you will. And what that has done--it 
has been built with the New York State learning standards, our 
Career Clusters. It was designed with New York State students 
that helped create that, and we have in a year over a half a 
million hits.
    One hundred ninety thousand of our students have created 
career portfolios that are password protected. Students spend 
as much as, on average, about 77 minutes each time they are 
into the site and much of that is after school. That site can 
help them drill down and look at what is really available in 
the broad array of clusters rather than a narrow view.
    So that partnership has been very, very successful and we 
continue to work on that. I can speak on that more 
specifically.
    In our approval process, in getting that, where students 
can make choices, we have tried to put assurances in to get an 
approved program. The locals are required to do a self-study. 
They are required to have external members of business and 
industry review it, and ultimately, we review it. We look at 
that as an opportunity for students, but we also look at the 
alignment with our graduation requirements, all students taking 
and passing five State assessments.
    Students who go through our approval process and pass the 
technical assessment get something added. They get a career and 
technical endorsement on their diploma. And we have seen an 
interesting phenomenon that we are going to track. We have had 
a 7.4 percent increase in our career technical education for 
secondary students. This is important because we think students 
are voting with their feet for quality.
    And to your point, Mr. Chairman, we are also finding, as we 
work with our locals, that students can be in a particular 
program and working with their counselors and teachers. If they 
find they want to make a switch in choice, they often have 
opportunities within that career technical center. We want to 
be sure that all students have an idea of the broad array of 
careers, what it takes and where the path will lead in their 
postsecondary experiences.
    And my last point is, in order for us to really provide for 
our Board of Regents where we are with this policy, we have 
contracted with an independent evaluator to look at the 
implementation of the policy across--to look at our strengths 
and weaknesses and review the policy.
    Chairman Castle. Thank you, Mrs. Stevens.
    Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman.
    I want to thank the witnesses for your testimony and the 
particular insight that you bring to this important subject 
matter.
    As I look at the community college system across the 
country and the unique system that we have in Wisconsin, I view 
some great challenges coming up in future years. But where 
there are some challenges, there are also some great 
opportunities. Where there is some risk as we go forward with 
maybe some of the changes that are being proposed, I think 
there are going to be some great rewards in the system.
    And among the big challenges--and there are many that I 
have been focusing on--is the funding issue, access and 
affordability. We can't take our eye off the ball when it comes 
to making sure that the students have the ability and the 
financial means to be able to access these colleges as we go 
forward, and yet the trend lines are not encouraging on this 
front. As you look at the difficult economic times that are 
coming out of the State budget cuts and the impact that is 
having on a lot of colleges, it is going to be important for 
the Committee to recognize that as we move forward.
    Another challenge is obviously the competition in the 
global marketplace today that students are facing themselves, 
that the current workforce is finding themselves in, and the 
ability to upgrade their skills to these changing conditions.
    And then, finally, it is an aging workforce, too, that we 
know is coming and is going to pose huge challenges in a lot of 
careers and professions and how we are going to be able to feed 
a demographic time bomb, retirement that is about to go off and 
the unique role that community colleges are going to play.
    Let me just ask the panel generally, with the President's 
budget proposal, calling for approximately 300 million-plus in 
cuts in the Perkins funding program, but also simultaneously 
talking about a new $250 million program, whether any of you 
had a chance to look at that and think about it, decipher it at 
all, whether that makes sense.
    I know there is not a lot of meat on the bones just yet, 
but the President is continuing to talk about this as he goes 
out in the countryside and visits many of our communities. If 
you could touch upon the impact that a lot of the cutbacks at 
the State level have had on the community college system and 
what challenges that has posed and the importance then of this 
reauthorization process, especially the funding level for the 
Perkins program.
    Dr. Ihlenfeldt. I will speak to Wisconsin first of all.
    We have had significant cutbacks at the State level over 
the past years in terms of our State funding. We have had 
restrictions on our property tax, which provides the second leg 
of that stool. And obviously, as you point out, you can charge 
students just so much. Access--our tuition equates to access at 
a technical college and the higher we raise tuition, the 
further we cut back on the number of students that have the 
ability to take advantage of technical education.
    As you look at Perkins funding, it provides us with many of 
the support activities that are necessary for the programs that 
we have and the wide range of students that we need to serve at 
the college. Without that funding, we would be in a very 
difficult situation--at least in Wisconsin, I suspect with most 
colleges around the country--to handle the wide variety of 
students that we deal with.
    That money brings in about--almost a million dollars to my 
college for the support services that are necessary; and with 
any cutback in that, we would not be able to provide a lot of 
the opportunities that we do to students.
    I think, as we move forward, it is going to become more 
critical as we move into the advanced manufacturing 
technologies that are going to be necessary to keep this 
country afloat to make it competitive as a global market. We 
are going to have to work closely with the K-12 system and the 
university systems in the country to make that a reality. And 
dollars at the Federal level are going to be essential if we 
are going to do those types of things because of the high price 
tag of many of those.
    Mr. Kind. Let me stay with you and open it up to the other 
witnesses. In regards to the Tech Prep demonstration grant 
money--and you referenced the Health Academy--there has been an 
idea about the possibility of eliminating the separate funding 
stream for the Tech Prep program and just absorbing it into the 
Perkins Act generally. Do you have any thoughts in that regard 
or any recommendations?
    Dr. Ihlenfeldt. The Tech Prep has served a vital role. It 
has exposed students at K-12 level to technical education. We 
have had an uphill battle in getting students comfortable with 
technical education, maybe getting their parents comfortable 
with technical education; and demonstration projects through 
Tech Prep have led to providing those types of opportunities.
    As the Chairman indicated, it may look like we are 
categorizing students or forcing them into a particular track, 
but let me give you examples.
    We have students that have gone through the Health Academy 
and have decided that--our objective obviously was to get them 
into nursing, but they went through it because they want to go 
into pre-med. What better way at the high school level to move 
into a program than to go through there? It gave them the 
exposure that they need. That particular part of the funding is 
critical.
    I think we need to spend more dollars on exposing students 
to advanced technologies that are coming down. That is going to 
be critical, and so that focuses on a particular need in our 
region at least.
    Mr. Kind. Ms. Brand.
    Ms. Brand. Two points: First of all, with regard to the 
issue of helping students access postsecondary education, I 
think one of the promising models that Congress needs to look 
at is the dual enrollment, the concurrent enrollment that 
allows high school students to take college credit and 
basically save on the cost of college tuition. And there is 
enough evidence that those have promoted access and success in 
postsecondary education. So I think, given the experience that 
we have had with Tech Prep, both the regular Tech Prep program 
and the demonstration program, I think you can build on that.
    Secondly, with regard to Tech Prep, my approach has been 
that it is time to let the demonstration go and to basically 
turn the Basic State Grant education or the basic funding for 
career technical education into something that looks a lot more 
like Tech Prep, which is the program of study that I described 
in my testimony; that there is no reason why all of career 
technical education shouldn't look a lot more like what Tech 
Prep is doing with some add-ons, with some amendments and 
improvements. But I believe that it is time to move that on, to 
take a hard stand and just say that this is what we think 
current technical education should look like, and it is time to 
drive that down through the system.
    Ms. Stevens. Congressman Kind, on your point about funding 
for community colleges, in New York State we, like many other 
States, continue to be challenged. But I can tell you from our 
community college universe, that they are very much in support 
of continued Perkins funding. We made strides in that seamless 
transition, and I would agree with the dual enrollment and 
those opportunities. So there is really strong feeling.
    Mrs. Stevens. I, again, think in terms of what I have told 
our wonderful Tech Prep community that they are likely to be 
the mothers and fathers of the new legislation because they 
really have shown the way in the way those connections need to 
be made.
    We might offer a suggestion in the new legislation that 
there may be a set-aside for competitive innovation. Tech Prep 
really has laid the foundation for what I believe will be the 
future act.
    Ms. Dunkel. In Illinois, if we saw a 25 percent reduction 
in what we currently receive for our Perkins base State grant, 
it would mean almost a $12 million reduction in our grant. So, 
yes, it would have a major impact on the programs we have in 
place.
    I feel that in Illinois we have established an extremely 
strong secondary/postsecondary link at the State level as well 
as many, many programs at the local level. It hasn't always 
been easy, but we have worked through those collaborative 
efforts, and I think we are very, very strong in that area.
    I also agree with the thinking of Ms. Brand on Tech Prep. 
To me, Tech Prep is quality, clear and technical education.
    Mr. Kind. Thank you, Mr. Chairman, for your indulgence.
    Chairman Castle. Mrs. Biggert is recognized for 5 minutes.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Ms. Dunkel, in your testimony you describe Career Clusters 
as a way of providing a broad focus allowing students to learn 
about an array of careers rather than specific jobs; and you 
also suggest that Career Clusters ensure alignment and 
integration of academic, technical and employable skills. Could 
you elaborate on that last point?
    Ms. Dunkel. I guess the easiest way to describe that for me 
is to almost think about a wheel with spokes. If you look at 
the very basis of that wheel, it is a foundation; and that 
foundation for a career cluster--let's just give an example of 
agriculture and natural sciences--would include the key 
academic skills, knowledge, and abilities that any occupation 
in that entire cluster would have aligned with.
    Then at the very middle of that wheel would be the core 
competencies that would go across any occupations within that 
cluster. There are also pathways that are included. And then on 
the very outside of that wheel would be very specific 
occupations that students probably would not experience until 
late high school or postsecondary education. So all through the 
implementation of the Career Clusters, the academic and 
technical and employability skills are aligned with each other.
    Mrs. Biggert. So these technical classes really would 
reflect and incorporate the academics--
    Ms. Dunkel. Absolutely.
    Mrs. Biggert. --that students learn in math, science, 
English whatever. Then you have recommended that the 
reauthorization process create a direct connection between 
accountability and local use of funds to drive program 
improvement, suggesting that locals must be required to spend 
funds on activities to improve their performance. And could you 
expand on that also?
    Ms. Dunkel. Yes. Actually, if we look at our core 
indicators with Perkins, the four core indicators really are 
identifying key areas in which schools and community colleges 
should be making progress and performing at a particular level.
    If, for example, a school in Illinois or anywhere were not 
able to meet their performance target in the non-traditional 
completion goal, then at the State level we would work with 
that local entity to identify some strategies that they could 
particularly use funds on and implement at that level to 
address that lack of performance. It is really taking how we 
are using the funds and directly connecting it to performance 
on the core indicators and hoping to improve that performance.
    Mrs. Biggert. Well, what should locals be required to do? 
We worry about the word ``required'' or ``mandate'' or anything 
like that.
    Ms. Dunkel. Each year the locals have to submit an 
application to the State agency for review and approval, and in 
Illinois the local application actually asks the schools to 
show their performance against the State's goal and against 
their own annual adjusted goal at the local level. If they are 
not meeting that performance target, then they have to identify 
within their plan very specific activities that they will use 
their Perkins funds on to address that performance goal.
    I know many other States have started to do that with their 
local planning process, but it is not required.
    Mrs. Biggert. Ms. Quinn, in your testimony you said that 
your business looks for employees with new and broader 
knowledge and skills than was necessary in the past. How do you 
ensure that your incoming employees have strong math, science 
and language skills? Do you test them?
    Ms. Quinn. No, we don't actually test them. But in the 
interview process not only are they interviewed by an H.R. 
Person, but we get our engineering staff involved. So we can 
screen out a basic level of knowledge. And we also rely heavily 
upon our community college system. We are familiar with the 
output and have been very pleased and happy with that output. 
So we rely very heavily upon the criteria that they impose and 
then take the process one step further when they come through 
the interview process.
    Mrs. Biggert. There was an article in the New York Times 
yesterday which I am very disturbed about and that was saying 
that the U.S. is really falling behind in science--research and 
development and science and that other countries are getting 
ahead of us. I think we are a very competitive Nation. I don't 
like to see that happen, particularly in this climate where we 
do need new and creative ideas.
    I just wondered if you really think that the students that 
are coming out really have the basic skills that they need so 
that we ensure that we are going to be the country that still 
has their future in the science.
    Ms. Quinn. I would say that they have the basic skills, but 
they don't have all of the necessary skills. It typically takes 
about 2 to 3 years of continued training within the 
organization to bring an employee to the full potential for 
what we are looking for. So we invest very heavily in 
additional training either by sending them to additional 
outside courses and/or internal training that we offer.
    Mrs. Biggert. Thank you. Thank you, Mr. Chairman.
    Chairman Castle. Sort of ironic because Mr. Kind had cited 
the exact same article from the New York Times and had it 
submitted for the record. I happened to use it yesterday in 
talking about the stem cells on a radio interview. The article 
seems to be the most quoted article of the week as far as I can 
ascertain.
    Mrs. Davis is recognized.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you all for 
being here.
    Ms. Brand, I want to go back to one of the things that you 
said about trying to have Perkins Act funding be on a grant 
basis rather than an entitlement. I was wondering what criteria 
you thought should be established if it switched over in that 
way.
    Ms. Brand. Thank you. The State would be involved in 
setting some of the standards for making those competitive 
grants, and in the report that we released that includes this 
recommendation for competitive grants we do lay out some ideas 
of what States would look at as they develop the criteria. We 
would want to ensure that they have the main elements of the 
program of studies that I described, which include the rigorous 
integrated curriculum, strong teachers, and the links to 
postsecondary education involvement with employers' guidance 
and counseling. So there are some core elements that would need 
to be part of the grant application.
    Then the State can also look at accountability measures 
that they have in place. But we would leave that up to the 
State and not--we certainly--I would not dictate from a Federal 
level that you would put those kinds of requirements in the 
law. Continue to allow States the flexibility to work, as I 
think you have heard from the two State directors here. They 
are already doing similar work right now, and they have their 
priorities and they have their system in place. So we would 
recommend that the States would be in charge of detailing the 
exact requirements.
    Mrs. Davis. Would there be any loss, then, to communities 
that perhaps weren't getting their act together? How would we 
reconcile that?
    Ms. Brand. The whole issue of moving to competitive grant 
is somewhat controversial. You would be taking money away from 
certain communities that are getting it right now. That is the 
challenge of moving toward something like this. But I think it 
is worth looking at in terms of promoting a real stimulus to 
communities to very intensively look at improvement of their 
career and technical education programs for a concentrated 
period of time and to get them kind of up to speed as opposed 
to just kind of little by little hoping that changes filter 
down.
    My experience with the past reauthorizations from the 
Perkins Act are that it takes 5 to 6 years for them to filter 
down to the local level, and I think we just may need to 
consider some ways to make that happen more quickly.
    Mrs. Davis. One of the issues, of course, is in trying to 
make certain that vocational education, whatever teachers who 
are working in this field with young people, that they stay 
current. Programs that suffer through cuts and others, teacher 
training fads, we might say, how does that affect people who 
really--we are hoping that at least they are staying very 
current and they are interacting particularly with the clusters 
in their own communities to have the highest and I guess best 
use of knowledge that is being demonstrated within the country 
today. How do you think we need to deal with that?
    Ms. Dunkel. One of the probable uses of Perkins funds that 
our regional delivery systems in Illinois use is for 
professional development of teachers; and it is critical, 
especially in the career and tech ed areas. Many times, schools 
are not able to find a teacher with a teacher preparation 
background. The particular area of health occupations is a good 
example. So they have to depend upon people who have 
appropriate work experience to teach those courses. So for them 
to be involved at a very in-depth level in professional 
development is very, very critical.
    Mrs. Davis. But within the climate that we have now with 
the number of budget cuts do you see that as one of the 
compromises that school districts are making? Is it as high a 
priority? And what role would you hope that the businesses in 
the local community are playing? I know there are a lot of 
wonderful players that are out there that are trying to do 
this, but I think the reality is that we really don't have the 
access to a lot of that new technology for our teachers, 
structures that we need to have. What will change that?
    Mrs. Stevens. I think one of the things that is evolving in 
New York State is there have been real challenges in getting 
the right kind of professional development, sustained, 
continuous over time, not one-shots either. As we have moved 
along in this integrated model for program approval--we have 
been at this about 3 years--we have seen an interesting thing 
emerge at the local level. As the academic and current 
technical teachers meet to look at student performance and 
really where the gaps and strengths are, they have developed 
some professional development targeted to that. They have also 
engaged some of the businesses and industries in those various 
programs.
    So we see some partnerships emerging because there is 
mutual need in having students be successful in moving out of 
secondary school into most secondary experiences and work 
sometimes together. So we are seeing those emerge.
    All of our districts are required to have a professional 
development plan for all of their teachers. As of February 1, 
any new teachers into the New York State teacher certification 
system are required to complete 175 hours of professional 
development each 5 years; and we see this as a real positive 
thing as the systems change across there. But professional 
development, to have highly qualified teachers, the best 
teachers in the classroom, whether it is academic or current 
technical education, is a priority and is a challenge for all 
of us.
    Mrs. Davis. Thank you.
    One quick question I guess to Ms. Quinn and others, I 
remember many years ago we talked about students having their 
grades essentially checked by the companies that they were 
going to for jobs, very much the way college transcripts would 
be used. Do you see very much of that? Are students feeling 
that their grades really do matter as they go out into the 
business community?
    Ms. Quinn. Yes, I think to the students and to the future 
employers it does matter. Excellence has value.
    Mrs. Davis. Or they ask for them--I guess that is my 
question--as you work with employers?
    Ms. Quinn. Often times the technical-type employee comes 
with a portfolio today. So when they walk into the interview 
process we have transcripts, we have maybe like design projects 
that they have worked on. So you can get a very good sense of 
what their background has been, whether they are coming right 
from the high school level and/or the community college or even 
the 4-year engineering degree school.
    Mrs. Stevens. I would like to just share in New York State 
as an example we have seen some interesting things happen 
regionally where businesses have joined together in working 
with one of our urban school districts, have agreed on like a 
work skills certificate so students who have a certain 
attendance, a certain grade point average are often hired at a 
little bit more hourly wage, and the businesses agree to really 
support the students and make sure they are at school and not 
working too many hours. So we see some very interesting mutual-
need partnership connecting it.
    I would also add as part of our approval program each 
student has to develop their own employability work skill 
profile. When they apply for even part time work in high 
school, they often take that with them to demonstrate what they 
have done not only academically but in their technical 
programs.
    Mrs. Davis. Thank you, Mr. Chairman.
    Chairman Castle. I have another question I would like to 
ask, so we are going to have a limited second round here, 
hopefully won't take the full time, but we will still set the 
clocks just in case. My question may be something you can't 
answer, so don't strive too hard if you don't really know the 
answer.
    The question is, if you know it--I realize you are not 
drafters of legislation. You may not be that familiar with the 
intricacies of the law. I have heard your testimony on the 
dollar part of all of this loud and clear, though I am 
perfectly willing to hear comments on that. What specific 
recommendations, if any, do you have for changes in the Perkins 
Reauthorization Act that we are about to undertake here in the 
next few weeks? You don't have to do it by citing a statute. If 
there are certain areas that you think need to be changed or 
emphasized, that would be sufficient. If you don't know the 
particular act that well, then your testimony will certainly 
stand in for you what you want to get done. I didn't want to go 
away from the hearing without seeing if you have any specific 
thoughts or recommendations. Anybody?
    Ms. Dunkel. One of the areas I would like for you to take a 
close look at are those that deal with fiscal requirements. 
Perkins does have the maintenance of effort requirement, which 
is pretty much an all-or-nothing requirement, as well as the 
State administrative match and the hold harmless for State 
administration. It is becoming more and more difficult for 
States, as our State budgets are in deficit and we have seen 
impacts at the State level, to maintain those requirements with 
Perkins. So I would just recommend taking a close look at those 
requirements.
    Chairman Castle. Thank you.
    Anybody else?
    Dr. Ihlenfeldt. I guess I would encourage you to look at 
the occupational areas, driving the occupational areas that are 
going to fuel the economy of this Nation as we move forward in 
whatever way you can in the grant. I think too many times we 
have heard it with the science and math, we accept the status 
quo.
    One of the challenges we have, at least at the community 
college level, is gearing up for the new technologies that are 
coming on board. Anything that can be done in terms of teacher 
preparation I would also encourage you to drive that through 
partnerships, because it can't occur in and by itself in any 
one system, albeit, a secondary system, or a postsecondary 
system.
    And I would encourage you, as you revitalize Perkins, to 
target some criteria that encourages the development of 
partnerships between the systems and with the business 
community as well. Because that is the only way that things 
like teacher preparation, getting students ready and interested 
and targeted into those occupations can occur.
    Mrs. Stevens. I would also encourage as you draft the 
legislation that we look at some common definitions of what a 
current technical education student is. As we look at the 
performance measures I think we need to look at secondary and 
postsecondary so that the picture and the story can be told and 
I think in a clearer way perhaps. So I think there is some 
tweaking that ought to happen in that area.
    Ms. Brand. Just briefly, as Congress considers education 
legislation I think one of the things that you need to keep in 
the forefront is the move toward creating K through 16 systems, 
and I think across all the legislative vehicles that you have 
there should be a review of how those connections can be made 
more strongly. I don't have any specifics right at the moment, 
but I think that, regardless of which piece of legislation, it 
is that kind of underlying theme that needs to run through a 
lot of the changes to make sure that 5 years from now we are 
not coming back saying this barrier exists and this barrier 
exists, and to look at it with that perspective.
    Dr. Ihlenfeldt. I would encourage you not to saddle us with 
a lot of new accountability factors. I think that many times 
that causes us a great deal of staff time and paperwork, if you 
will, to make things happen. I think there are enough 
accountability measures already in place by accrediting bodies 
and data that is collected on the State level that could be 
utilized, as opposed to creating new accountability measures 
that take away from the dollars that are available to us.
    Chairman Castle. We are pretty good at demanding 
accountability. We are probably not as good at understanding 
what it does when the rubber hits the road.
    I think your comments are not only well directed toward 
this bill but a lot of other particularly education legislation 
that we handle. But I tell what you is helpful, and that is 
feedback from all of you in very specific terms. I tell my 
educators that back in Delaware.
    You complain about Federal requirements, et cetera, a lot 
of them are State requirements, but, whatever, they are 
complaining about the requirements. Give me specifically what 
it is that you are complaining about, what is the regulation, 
what is the statute, what does it cause you to do, so that we 
can understand that and make recommendations for changes.
    I think we pass a lot of laws very generically and 
generally without understanding the ramifications of what we do 
further down the line. It is really helpful to specifically see 
what that is. If you are spending 50 hours of staff time 
preparing what seems to be some simple request, that is the 
kind of thing we should know. Sort of using you as an example 
for almost everything we seem to do in Congress and 
particularly even in this committee.
    Dr. Ihlenfeldt. That is not a statement against 
accountability. I think we all need to be accountable. But 
there are efficient and effective ways of doing it.
    Chairman Castle. Mr. Kind.
    Mr. Kind. One follow-up question, but I want to echo the 
Chairman's sentiments in terms of the feedback. It is crucial. 
You are aware of where the rubber meets the road and how it 
works in the real-world type of thing. It is helpful to us to 
get this feedback not just in the formal hearing process but 
throughout the reauthorization process.
    I know, Mr. Chairman, during the IDEA reauthorization 
markup you had created a Web site encouraging that type of 
feedback for IDEA instructors and parents and anyone involved. 
I was wondering if you did do the same thing for Carl Perkins 
or is there an opportunity for people to--
    Chairman Castle. We had so many complaints about how much 
time it took to do the Web site.
    Mr. Kind. Staff is cringing behind us.
    Chairman Castle. We have not done it, but it is certainly 
something we will take under rapid advisement.
    Mr. Kind. Let me get back to my last question here. I would 
be remiss, as one of the leaders of the Rural Education Caucus 
here in the House, not to ask about what we are trying to 
attempt in the reauthorization bill. That is that local reserve 
fund for servicing rural areas.
    Now in my congressional district we have four technical 
colleges, a couple of community colleges, a host of satellite 
campuses, too, many of them servicing rural areas. If any of 
you have any specifics on how this local rural reserve fund has 
worked or is not working, we would be interested in hearing 
about that today.
    Have you had any direct knowledge of this reserve fund that 
was established, Dr. Ihlenfeldt?
    Dr. Ihlenfeldt. No, I haven't.
    Mr. Kind. Does anyone?
    We will have to delve into that a little bit further.
    Ms. Dunkel. In Illinois, we chose not to request the 
reserve percentage because we have a regional delivery system. 
We have 60 regions in the State, and their responsibility is to 
work with all of the schools that offer career and tech ed.
    Mrs. Stevens. Our experience in New York was similar. We 
have 38 regions, so we made sure we touch the rural areas.
    Mr. Kind. Thank you all again. We appreciate your 
testimony. It was a very helpful, very productive hearing.
    Chairman Castle. Let me thank the panel. They were very 
thoughtful, very helpful in our deliberations on this. We 
appreciate it. You are always welcome to follow up if you have 
other thoughts when you get away from here in the form of a 
letter or whatever. Because we truly are interested in getting 
your thoughts. We are just trying to write legislation, and you 
are more in the field than we are. So that makes a difference. 
We thank you.
    If there is nothing further, we stand adjourned.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
